  AUDIT OF THE OFFICE ON VIOLENCE AGAINST

WOMEN GRANTS TO INDIAN TRIBAL GOVERNMENTS

PROGRAM AWARDED TO THE YANKTON SIOUX TRIBE 

           WAGNER, SOUTH DAKOTA



          U.S. Department of Justice

        Office of the Inspector General

                 Audit Division


          Audit Report GR-60-13-006

                  April 2013

  AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

  GRANTS TO INDIAN TRIBAL GOVERNMENTS PROGRAM 

       AWARDED TO THE YANKTON SIOUX TRIBE

              WAGNER, SOUTH DAKOTA


                          EXECUTIVE SUMMARY


      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Office on Violence Against
Women (OVW), Grants to Indian Tribal Governments Program, Grant No.
2007-TW-AX-0042 totaling $389,996, awarded to the Yankton Sioux Tribe
(YST), Wagner, South Dakota.

EXHIBIT 1: GRANT AWARDED TO YANKTON SIOUX TRIBE
                                        PROJECT        PROJECT         AWARD
   AWARD NUMBER        AWARD DATE      START DATE     END DATE        AMOUNT
  2007-TW-AX-0042       09/17/07        09/01/07      02/28/13       $ 389,996
                                                          Total:     $ 389,996
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)

Background

      The OVW’s mission is to provide federal leadership in developing the
nation’s capacity to reduce violence against women and administer justice
for and strengthen services to victims of domestic violence, dating violence,
sexual assault, and stalking. To support this mission, the OVW administers
financial and technical assistance to communities across the country that are
developing programs, policies, and practices aimed at ending domestic
violence, dating violence, sexual assault, and stalking.

       The Yankton Sioux Tribe of South Dakota (YST) resides on the Yankton
Reservation, which is approximately 40,000 acres in southeast South
Dakota. Approximately 3,500 enrolled tribal members live within this area.
The YST government consists of a constitution and bylaws and the governing
body is the Yankton Sioux Tribal Business and Claims Committee, made up
of five committee members and four Executive Officers including the
Chairman, Vice-Chairman, Secretary, and Treasurer.

Our Audit Approach

      The purpose of the audit was to determine whether costs claimed
under the grant were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of the audit was to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, (4) budget management and control, (5) financial status and
progress reports, (6) program performance and accomplishments, (7) grant
closeout activities, (8) property management, (9) matching costs,
(10) program income, (11) monitoring of sub-grantees and contractors, and
(12) special grant requirements. We found that grant closeout, property
management, matching costs, program income, and monitoring of sub-
grantees and contractors were not applicable to this grant audit. We tested
compliance with what we consider to be the most important conditions of the
grant award. Unless otherwise stated in this report, the criteria we audit
against are contained in the OJP Financial Guide and the award documents.

      We examined the YST’s accounting records, financial and progress
reports, and operating policies and procedures and found:

  •	 the accounting system allowed backdating transactions after the end
     of the reporting period;

  •	 drawdowns were generally unsupported and exceeded actual expenses
     by approximately $141,808. Prior to our audit, the YST returned
     $55,409 of these excess drawdowns to the OVW;

  •	 unallowable indirect costs totaling $19,082 and bank charges totaling
     $160 were reimbursed with grant funds;

  •	 training events and similar activities were not relevant to the grant
     goals and objectives resulting in $12,053 in unallowable questioned
     costs;

  •	 training events and similar activities were not pre-approved by the
     OVW, as required, resulting in $14,795 in questioned costs;

  •	 a traveler was reimbursed twice for mileage and for hotel bills that
     were direct billed to another agency resulting in $953 in questioned
     costs;

  •	 documentation for grant-related transactions was sometimes missing
     or incomplete resulting in $13,428 in questioned costs;

  •	 timecards to support some payroll records were missing;




                                     ii
  •	 Federal Financial Reports and Financial Status Reports were

     inaccurate; and


  •	 Progress reports were not submitted timely and were unsupported.

      This report contains 10 recommendations and identifies $59,518 in
dollar-related findings, which are detailed in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                    iii
                                    Table of Contents


INTRODUCTION ................................................................................ 1

  Background.......................................................................................1

  Our Audit Approach............................................................................2

FINDINGS AND RECOMMENDATIONS................................................ 4

 Prior Audits .......................................................................................4

   Single Audit....................................................................................4

   The OVW Site Visit ..........................................................................4

 Internal Control Environment ..............................................................5

 Drawdowns .......................................................................................6

 Grant Expenditures ............................................................................8

   Direct Costs ...................................................................................8

   Payroll ......................................................................................... 12

 Budget Management and Control ....................................................... 12

 Grant Reporting............................................................................... 13

   Financial Reporting........................................................................ 13

   Categorical Assistance Progress Reports .......................................... 16

 Program Performance and Accomplishments ....................................... 18

   Program Objectives ....................................................................... 18

   Analysis of Program Performance .................................................... 18

 Conclusion ...................................................................................... 20

 Recommendations ........................................................................... 21

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY .................. 22

APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS ............. 24

APPENDIX III: DETAILED QUESTIONED COSTS .............................. 25

APPENDIX IV: PROJECT TIMETABLE ............................................... 29

APPENDIX V: THE YANKTON SIOUX TRIBE RESPONSE TO THE DRAFT 

REPORT .......................................................................................... 30

APPENDIX VI: THE OVW RESPONSE TO THE DRAFT REPORT .......... 33

APPENDIX VII: OIG ANALYSIS AND SUMMARY OF ACTIONS

NECESSARY TO CLOSE THE REPORT................................................ 36

   AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

   GRANTS TO INDIAN TRIBAL GOVERNMENTS PROGRAM 

        AWARDED TO THE YANKTON SIOUX TRIBE 

               WAGNER, SOUTH DAKOTA


                               INTRODUCTION


      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Office on Violence Against
Women (OVW), Grants to Indian Tribal Governments Program, Grant No.
2007-TW-AX-0042 totaling $389,996, awarded to the Yankton Sioux Tribe
(YST), Wagner, South Dakota.

EXHIBIT 1: GRANT AWARDED TO YANKTON SIOUX TRIBE
                                         PROJECT        PROJECT          AWARD
   AWARD NUMBER         AWARD DATE      START DATE      END DATE        AMOUNT
  2007-TW-AX-0042        09/17/07        09/01/07       02/28/13       $ 389,996
                                                            Total:     $ 389,996
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)

Background

      The OVW’s mission is to provide federal leadership in developing the
nation’s capacity to reduce violence against women and administer justice for
and strengthen services to victims of domestic violence, dating violence,
sexual assault, and stalking. To support this mission, the OVW administers
financial and technical assistance to communities across the country that are
developing programs, policies, and practices aimed at ending domestic
violence, dating violence, sexual assault, and stalking.

      The Yankton Sioux Tribe of South Dakota (YST) resides on the Yankton
Reservation, which is approximately 40,000 acres in southeast South Dakota.
Approximately 3500 enrolled tribal members live within this area. The
government consists of a constitution and bylaws and the governing body is
the Yankton Sioux Tribal Business and Claims Committee, made up of five
committee members and four Executive Officers including the Chairman,
Vice-Chairman, Secretary, and Treasurer.
   The Grants to Indian Tribal Governments Program (Tribal Governments
Program) has multiple goals, and awards funds to:

   •	 Develop and enhance effective plans for tribal governments to respond
      to violence committed against Indian women;

   •	 Strengthen the tribal criminal justice system;

   •	 Improve services available to help Indian women who are victims of
      violence;

   •	 Create community education and prevention campaigns;

   •	 Address the needs of children who witness domestic violence;

   •	 Provide supervised visitation and safe exchange programs;

   •	 Provide transitional housing assistance; and

   •	 Provide legal advice and representation to survivors of violence who
      need assistance with legal issues caused by the abuse or the violence
      they suffered.

Our Audit Approach

      The purpose of the audit was to determine whether costs claimed under
the grant were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grant. The objective
of the audit was to review performance in the following areas: (1) internal
control environment, (2) drawdowns, (3) grant expenditures, (4) budget
management and control, (5) financial status and progress reports,
(6) program performance and accomplishments, (7) grant closeout activities,
(8) property management, (9) matching costs, (10) program income, (11)
monitoring of sub-grantees and contractors, and (12) special grant
requirements. We found that grant closeout, property management,
matching costs, program income, and monitoring of sub-grantees and
contractors were not applicable to this grant audit.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria we
audit against are contained in the OJP Financial Guide and grant award
documents. We tested the YST’s:

   •	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were

                                       2

     adequate to safeguard grant funds and ensure compliance with the
     terms and conditions of the award;

  •	 grant award drawdowns to determine whether grantee drawdowns
     were adequately supported and if the YST was expending drawdowns
     timely;

  •	 budget management and control to determine the YST’s compliance
     with the costs approved in the grant budget;

  •	 grant award expenditures to determine the accuracy and allowability
     of costs charged to the grant;

  •	 Financial Status Reports/Federal Financial Reports (FSRs/FFRs)
     and Progress Reports to determine if the required FSR/FFRs and
     Progress Reports were submitted in a timely manner and accurately
     reflect grant activity; and

  •	 grant program performance and accomplishments to determine
     whether the YST has met the grant objectives.

     The findings and recommendations are detailed in the Findings and
Recommendations section of this report. Our audit objective, scope, and
methodology appear in Appendix I.




                                     3

               FINDINGS AND RECOMMENDATIONS

      We determined that the YST has documented policies and
      procedures related to financial and accounting functions and an
      accounting system that provides for separation of duties, access
      level security, and transaction traceability. However, the YST’s
      accounting system permitted transactions to be backdated into
      the general ledger nearly one year after the period end date. We
      also found that the YST had excess and unsupported drawdowns;
      unallowable indirect costs and bank charges; unapproved training
      activities; unallowable training activities; inappropriate travel
      reimbursements; and incomplete documents. Additionally,
      Financial Reports were inaccurate and Progress Reports were
      submitted late and were not adequately supported.

Prior Audits

Single Audit

      The Office of Management and Budget (OMB) Circular A-133 requires
that non-Federal entities that expend $500,000 or more per year in Federal
awards have a single audit performed annually. We determined that the
most recent Single Audit of the YST was for Fiscal Year (FY) 2011, which
ended September 30, 2011. We reviewed the audit report and identified the
following issues which could relate to the administration of Grant No.
2007-TW-AX-0042:

   •	 Travel procedures were not followed relating to collection and
      maintenance of receipts, reconciliation of advances, and balancing the
      travel advances with the general ledger.

   •	 While the YST management has identified and addressed some specific
      risks relevant to an overall risk assessment for the entire organization,
      it has no formal process to assess, analyze, and manage these risks on
      an ongoing basis.

   •	 From the 2009 and 2010 Single Audits, grant reports were delinquent,
      but this issue was reported to have been corrected in 2011.

The OVW Site Visit

       We noted that the OVW Program Manager responsible for the Grants to
Tribal Governments Program, Grant No. 2007-TW-AX-0042, had performed a
site visit in April 2012. According to the site visit report, obtained from the


                                       4

OVW Grants Manager, there were several issues identified, the most material
issues were:

      •	 Progress Reports indicate training; however, no materials related to
         any of these trainings were submitted for prior review and approval
         by the OVW.

      •	 Progress Report indicates the use of grant funds for transitional
         housing, which is unbudgeted and requires submittal of a separate
         plan concerning policies and criteria.

      •	 Federal Financial Reports were frequently inaccurate.

      As a result of the information in the Single Audit and the OVW site visit,
we expanded our sampling in reviewing reports and transaction testing.
These modifications are described in the applicable sections that follow where
we discuss our methodology.

Internal Control Environment

      We reviewed the YST’s internal control environment, including
procurement, receiving, payment, and payroll procedures to determine
compliance with the terms and conditions of the grant award and to assess
risk.

      We determined the YST has documented policies and procedures
related to financial and accounting functions. All financial activities for the
YST are performed by the Finance Department. However, the YST does
consult with a local accounting firm. The Single Audit was performed by
another accounting firm located in Yankton, South Dakota.

      YST officials stated that it currently uses the FUTEX accounting system
and has used this system since the mid 1980’s. It has a comprehensive set
of accounting and financial programs including accounts payable, accounts
receivable, purchasing, inventory, check writing, travel and personnel. The
YST is in the process of converting its financial system to the Sage MIP Funds
Accounting system. According to YST officials, Sage MIP will be able to
absorb all the data in the FUTEX system.

       Each financial function (payroll, purchasing, personnel, etc.) has a
different responsible person, and a backup person that can also accomplish
the function. Payroll, Procurement, Personnel, and the other finance
departments are physically separated. Additionally, the accounting system is
password protected and has separate access levels which prevent
unauthorized personnel from accessing accounts they are not qualified to

                                        5

enter into or edit. The system is backed up weekly and the backup is kept in
a safety deposit box. There is also a firewall to protect external access and
prevent hacking. All transactions are date and time stamped and cannot be
changed.

       We did find one weakness concerning the closing out of quarterly
reporting periods. The accounting system allowed backdating transactions
after the end of the reporting period. According to management at the
accounting firm that the YST uses for financial consulting, this was partly due
to the FUTEX system not automatically forcing financial period closeouts
allowing the period to remain open indefinitely and partly due to the YST
being behind in their accounting.

      This issue came to light during the evaluation of Financial Status
Reports/Federal Financial Reports (FSR/FFR) in which the totals on the
general ledger expense summary sheets did not match the totals on the
FSR/FFRs. This is discussed in greater detail later in the Financial Reporting
section of this report. As shown below in Exhibit 2, approximately $19,082
was backdated into an earlier time period.

EXHIBIT 2: BACKDATED INDIRECT COSTS CHARGED TO GRANT 1
EFFECTIVE                                                                          DATE
  DATE                 DESCRIPTION                    REFERENCE       DEBIT      ENTERED
 09/30/08     Update IDC TO 33.32% of Direct Exp       2008-088      $ 1,662     06/19/09
 11/30/08     Update IDC TO 33.32% of Direct Exp       2009-039         4,438    06/19/09
 02/28/09     Update IDC TO 33.32% of Direct Exp       2009-040         6,527    06/19/09
 05/31/09     Update IDC TO 33.32% of Direct Exp       2009-042         6,454    06/19/09
                             TOTAL                                   $19,082
Source: The YST General Ledger

      As a result of the backdated transactions, all of the cumulative totals on
the FSR/FFRs were inaccurate, with actual expenses understated. According
to the accounting firm’s management, the YST is now up-to-date on its
accounting, so they are able to complete the closeout annually. We
recommend the YST implement procedures to ensure that accounting periods
are closed out timely and backdating is eliminated.

Drawdowns

     According to the OJP Financial Guide, recipients should time their
drawdown requests to ensure that federal cash on hand is the minimum

      1
          Differences in totals throughout the report are due to rounding (the sum of
individual numbers prior to rounding may differ from the sum of the individual numbers
rounded).

                                             6

needed for disbursements to be made immediately or within 10 days. The
YST Administrative Officer stated that drawdowns are supposed to be based
on advances for obligations such as payroll and accounts payable, which are
then settled once the drawdown reaches the bank in 1-2 days. It should be
noted that the first drawdown for the YST was October 1, 2008, while the
grant start date was September 17, 2007. This delay of more than a year
was due to the late completion of the 2006 Single Audit report.

     Currently, the Drawdown Officer receives a “drawdown calculation
spreadsheet” from the Payroll Officer and the Accounts Payable Clerk showing
how much is owed from the grant program. The Payroll Officer and Accounts
Payable Clerk cross check with the bank balance associated with the
program. If there are not sufficient funds, checks are held and the
Drawdown Officer submits a request for a drawdown to the funding agency.
Once the funds arrive at the bank, the checks are released.

      The drawdowns were evaluated to determine if there was adequate
documentation to support each drawdown, and to determine if overall
expenditures and drawdowns generally matched to ensure there were no
excess funds on hand. However, in reviewing the support documents
provided, it was noted that there were no support documents provided for
drawdowns 1, 2, 3, 10, 11, and 12, and only limited documents were
provided for drawdowns 4 through 9. According to the OJP Financial Guide
2006, "All recipients are required to establish and maintain accounting
systems and financial records to accurately account for funds awarded to
them…." The YST did not establish or maintain an adequate system to
accurately account for funds drawn. The YST management could not explain
why there were missing or insufficient support documents related to
drawdowns.

      Since documents for draws 1 through 3 and 10 through 12 were not
provided, we requested general ledger expense summaries for all of the
drawdown periods. We defined the drawdown period for each drawdown as
the day following the last draw through the date of the next draw. The
drawdowns were evaluated to determine if the general ledger expense
summaries for these defined periods supported the amounts drawn. Since
drawdowns 5 and 6 occurred on the same day, the expenses are shown for
drawdown number 5.

     Exhibit 3 shows that beginning with drawdown 4, the cumulative gap
between drawdowns and actual expenses continued to increase until excess
drawdowns exceeded actual expenses by $141,808 as of December 17,
2010, which was the last drawdown.



                                     7

EXHIBIT 3: DRAWDOWN HISTORY COMPARED TO EXPENSES

                                                                                 DIFFERENCE
                                     EXPENSES PER                   CUMULATIVE    BETWEEN
                                     ACCOUNTING                      EXPENSES    CUMULATIVE
          DATE OF        AMOUNT      RECORDS FOR     CUMULATIVE         PER      DRAWDOWNS
DRAW    DRAWDOWN       DRAWN PER      DRAWDOWN       DRAWDOWNS      ACCOUNTING       AND
 NO.     PER OJP          OJP          PERIOD          PER OJP       RECORDS       EXPENSES
  1      10/01/08       $ 8,000       $ 10,316        $ 8,000       $ 10,316     $    2,316
  2      10/14/08          3,500          (418)         11,500          9,897        (1,603)
  3      03/18/09         35,000        45,379          46,500         55,276         8,776
  4      06/01/09         35,000        22,419          81,500         77,695        (3,805)
  5      06/24/09         12,208         5,757          93,708         83,452       (10,256)
  6      06/24/09         21,961           -          s115,669         83,452       (32,217)
  7      09/17/09         22,000        16,019         137,669         99,470       (38,198)
  8      12/01/09          5,000        18,066         142,669       117,536        (25,132)
  9      12/10/09         15,000         5,351         157,669       122,888        (34,781)
 10      09/22/10        100,000        62,461         257,669       185,348        (72,320)
 11      10/18/10         32,327         6,596         289,996       191,945        (98,051)
 12      12/17/10         60,000        16,243        $349,996      $208,188     $(141,808)
        TOTAL          $349,996      $208,188
Source: Office of Justice Programs and Yankton Sioux Tribe General Ledger

       The YST management could not explain why there was minimal support
documentation for drawdowns or why they were overdrawn by $141,808. As
a result of the OVW site visit in April 2012, the OVW requested, and the YST
agreed, to return approximately $55,000 in excess drawdowns. The OVW
finally received a check dated July 12, 2012 for $54,409. We recommend the
YST implement a system to ensure all drawdowns are completely supported
and that all drawdowns are expended within 10 days of receipt.

Grant Expenditures

Direct Costs

      As mentioned previously in the “Prior Audits” section pertaining to
Single Audits and a site visit by the OVW, there were concerns regarding
travel reimbursements and possible unbudgeted expenditures. As a result of
these concerns, we determined that we would expand our sample of
transaction tests to include 100 percent of all non-personnel related
transactions, thus excluding personnel and fringe benefits which were tested
separately. We also excluded indirect costs as they were not approved in the
grant budget, and bank charges as they were not approved in the grant
budget and were unallowable.

      We tested 204 transactions totaling $40,559 resulting in total
questioned costs of $24,519. Additionally, we questioned indirect costs of
$19,082 and bank charges of $160 bringing the total questioned costs to

                                            8

$43,761. See the Schedule of Dollar-Related Findings in Appendix II for
totals by category.

       In performing the transaction tests, we found many of the line items
were questioned for more than one reason. For instance, one transaction
was questioned because: (1) the transaction was for training and no prior
approval was received from the OVW, (2) the course was not relevant to the
grant objectives, and (3) there was indication that the costs had been direct
billed to the event sponsor and there was insufficient documentation to
justify reimbursement to the traveler.

       Appendix III, Detailed Questioned Costs, provides a comprehensive
listing of all questioned costs, including identification of overlapping
questioned costs. For purposes of tracking duplicate questioned cost
transactions during the transaction testing, we used three categories of
questioned costs: (1) Unallowable (not relevant to objectives of the grant),
(2) unsupported (no receipts or other documents), and (3) unapproved (no
prior approval as required from the OVW). Indirect costs and bank charges
were separate questioned costs. We used the unallowable category as a
baseline so there are no duplicate questioned cost transactions in this
category. All of the duplication occurs in the unsupported and unapproved
categories.

       Exhibit 4 shows the breakout of costs by all categories, including the
overlap between categories. See Appendix III, Detailed Questioned Costs,
for detailed information on each transaction and the duplication of questioned
costs.

EXIBIT 4: SUMMARY OF QUESTIONED COSTS BY CATEGORY 2
                 TYPE OF QUESTIONED COST                AMOUNT
 Indirect Costs (unbudgeted)                           $ 19,082
 Bank Charges (unbudgeted)                                   160
 Unallowable (not relevant to objectives of the grant)    12,053
 Unsupported (no receipts or other documents)             13,428
 Unapproved (no prior approval as required by the OVW)    14,795
 TOTALS                                                $ 59,518
Source: The YST general ledger and OIG evaluation



       2
          Indirect costs and bank charges were separate transactions not included in the
transaction testing. The category “Unallowable” was used as the baseline for questioned cost
calculations so it does not have any duplicated questioned costs in it. The duplication in
questioned costs are in the categories “Unsupported” (no receipts or other documents) and
“Unapproved” (no prior approval by the OVW). There were a total of $15,757 in duplicate
costs that were deducted from the $59,518 in Exhibit 4 to arrive at the $43,761 in Exhibit 5.

                                             9

      In reviewing the course outlines for training events, we determined in
many instances the subject matter was not relevant to the objectives of the
grant. The total questioned costs related to these transactions were
$12,053. We recommend that the YST implement procedures to ensure only
relevant training costs are charged to the grant.

      According to the OJP Financial Guide, all recipients are required to
establish and maintain accounting systems and financial records to accurately
account for funds awarded to them. We found 54 transactions for which
there was either no documentation or inadequate documentation resulting in
$13,428 in questioned costs. We recommend the YST implement procedures
to ensure all transactions are supported and records are maintained.

       According to Special Condition 16 of the award documents, “the
grantee will provide the OVW with the agenda for any training seminars,
workshops, or conferences not sponsored by the OVW that project staff
proposes to attend using grant funds.” We found 18 instances of training
related expenses and according to the OVW there were no requests or
approvals of any non-OVW sponsored training. Additionally, according to
Special Condition 21 of the award documents, the YST is required to submit
the final policies, procedures, and rules regarding a transitional housing plan
to the OVW for review and approval. According to the OVW, there is no
approved transitional housing plan on file.

      As a result, we questioned $14,795 in training-related costs and
transitional housing which were not approved by the OVW. The previous
Program Director was unavailable to explain why prior OVW approval was not
sought or received, and neither the current Acting Program Director nor the
YST management could provide an explanation. We recommend that the YST
implement procedures to ensure compliance with all grant special conditions
requiring prior OVW approval for training and similar events funded by the
grant.

       Exhibit 5 shows the net questioned costs by category taking into
account the duplicate issues and removing them from the total. There was a
total of $15,757 in duplicate questioned costs that were deducted from the
Total Questioned Costs, leaving a net of $43,761. As mentioned previously,
the total includes unallowable indirect costs and bank charges.




                                      10

EXHIBIT 5: SUMMARY OF NET QUESTIONED COSTS BY CATEGORY 3
                 TYPE OF QUESTIONED COST                   AMOUNT
Indirect Costs (Unbudgeted)                               $ 19,082
Bank Expenses Unbudgeted)                                       160
Questioned Costs (transaction testing without duplicates)    24,519
TOTALS                                                    $ 43,761
Source: The YST general ledger and OIG evaluation

      During our review of the travel transactions, we found two instances in
which it appears the traveler may have been erroneously double reimbursed
or reimbursed for expenses they did not incur. In the first instance, the
submitted travel voucher included the receipt and payment for a hotel
expense that was direct billed to the event sponsor. In the second instance,
the submitted voucher included a hotel receipt and payment for an expense
that was direct billed to the event sponsor as well as a mileage
reimbursement, a portion of which had been paid directly to the traveler by
the event sponsor. There was no indication any of these funds were repaid
by the traveler to the grant account. The total amount questioned was $953,
which was included in the unsupported and unallowable questioned costs.

      According to the YST travel coordinator the primary cause for these
occurrences was a lack of experience in processing the vouchers. We
recommend the YST implement procedures to ensure travel vouchers are
correct and only allowable costs are included.

       During the evaluation of transactions, we observed many documents
were not fully completed, such as missing names, dates, or other requested
information. Also, check requests must include adequate information to
identify the specific purpose of the assistance. Comments such as “victim
assistance” or “gas” are insufficient to verify the allowability of the
expenditure. Receipts need to be provided showing exactly how the funds
were expended. Additionally, the recipient of assistance must be identifiable
through some type of coding process to allow traceability of the funds on a
need to know basis.

      We recommend the YST remedy the questioned costs listed in Exhibit 4
and implement procedures to maintain adequate records.




       3
          The net questioned costs eliminates redundant costs (i.e., costs that fell into
multiple categories such as not germane to objectives and not approved by the OVW)


                                              11

Payroll

       We tested payroll separately from other direct cost transactions. We
sampled one pay period for each of the last four years (2009, 2010, 2011,
and 2012), looking at the payroll records for every individual funded by the
grant. Since there were only two personnel budgeted under the grant, there
were only one or two personnel tested for each year for a total of six payroll
transactions tested. Every employee of the YST signs in and out with a
timecard. The supervisor uses the timecard to prepare a timesheet which is
turned into payroll for processing. We did not find any issues with the pay or
fringe benefits, or the calculations and percentages. However, as with the
transaction testing, we found documents were often incomplete, leaving out
names, dates, or other required information. Additionally, four of the six
payroll transactions tested were missing timecards so the time sheets from
which the payroll is prepared could not be verified. The payroll clerk could
not explain why the timecards were not with the payroll records. We
recommend the YST implement procedures to ensure payroll records contain
all required documents and that all documentation is accurate and complete.

Budget Management and Control

      According to the OJP Financial Guide, movement of dollars between
approved budget categories without a Grant Adjustment Notice (GAN) is
allowable up to 10 percent of the total award amount. Exhibit 6 shows the
amounts budgeted and expended through August 6, 2012. Personnel costs
exceeded budget by $21,314 but did not exceed the ten percent threshold.
The YST could still transfer up to $17,686 between budget categories;
however, any more than this amount would require a revised budget and
approval from the OVW.




                                      12

EXHIBIT 6: BUDGET MANAGEMENT AND CONTROL FOR Grant No.
             2007-TW-AX-0042
                    BUDGET                 AMOUNT      AMOUNT
      BUDGET       CATEGORY     ACTUAL      UNDER       OVER
                                                   4
     CATEGORY       AMOUNT       COSTS     BUDGET      BUDGET
 Personnel        $ 224,640   $ 245,954  $      -     $ 21,314
 Fringe
 Benefits             29,203      22,812      (6,391)      -
 Travel               41,503      17,324    (24,179)       -
 Equipment             5,300       2,798      (2,502)      -
 Supplies             16,200        4928    (11,272)       -
 Contractual               -           -        -          -
 Other                73,150      11,431    (61,719)       -
 TOTAL AMOUNT    $ 389,996    $ 305,246                    -
 Total Under/Over Budget of Direct Costs $(106,064)     21,314
 Ten Percent Threshold for 2007-TW-AX-0042              39,000
 Difference Between Over Budget and Threshold         $(17,686)
Source: Award documents and the YST general ledger

Grant Reporting

     We reviewed the Financial Reports and Categorical Assistance Progress
Reports (Progress Reports) to determine if the required reports had been
submitted within the timeframes required by the OJP Financial Guide and
were accurate.

Financial Reporting

      The OJP Financial Guide, 2006, states that recipients will report
program outlays and revenue quarterly on the SF 269A, Quarterly Financial
Status Reports (FSR), no later than 45 days after the last day of each
reporting period. Effective the quarter ending October 1, 2009, recipients
must report expenditures online using the Federal Financial Report Form
(FFR), FFR-425 no later than 30 days after the end of each calendar quarter.
As mentioned previously in the “Prior Audits” section pertaining to Single
Audits and a site visit by the OVW, there were concerns regarding the
timeliness and accuracy of Financial Reports. As a result of these concerns,
we expanded our sample of financial reports to include the last 8 quarters for
timeliness, and all 20 reports for accuracy.



      4
          Differences in totals throughout the report are due to rounding (the sum of
individual numbers prior to rounding may differ from the sum of the individual numbers
rounded).

                                            13

      As shown in Exhibit 7, we reviewed the eight most recent FFRs for the
grant and determined that 2 of the eight were late, one by 15 days and one
by only 1 day. The last two FFRs were submitted on time. Since there was
only one report materially late (15 days) in the past 8 quarters, we
determined that financial reporting was generally timely.

EXHIBIT 7: FEDERAL FINANCIAL REPORTS TIMELINESS
              Report Period         Report Due Date           Date Submitted       Days
  No.         From-To Dates          (MM/DD/YY)                (MM/DD/YY)          Late
  13        07/01/10 - 09/30/10        10/30/10                  10/22/10            0
  14        10/01/10 - 12/31/10        01/30/11                  01/19/11            0
  15        01/01/11 - 03/31/11        04/30/11                  04/20/11            0
  16        04/01/11 - 06/30/11        07/30/11                  07/27/11            0
  17        07/01/11 - 09/30/11        10/30/11                  11/14/11           15
  18        10/01/11 - 12/31/11        01/30/12                  01/31/12            1
  19        01/01/12 - 03/31/12        04/30/12                  04/12/12            0
  20        04/01/12 - 06/30/12        07/30/12                  07/24/12            0
Source: Grants Management System and OJP Financial Guide

      As discussed previously in the Internal Controls Environment section,
there were four transactions totaling $19,082 for adjustments to indirect
costs made on June 19, 2009 that were backdated into previous time
periods. These adjustments, along with others, caused the totals of the
quarterly expenditure summaries to change after the FSR/FFR had been
submitted. These transactions are displayed in Exhibit 8 below.

EXHIBIT 8: BACKDATED INDIRECT COSTS CHARGED TO GRANT
EFFECTIVE                                                                           DATE
  DATE                    DESCRIPTION                      REFERENCE    DEBIT     ENTERED
 09/30/08      Update IDC to 33.32% of Direct Expense       2008-088    $ 1,662   06/19/09
 11/30/08      Update IDC to 33.32% of Direct Expense       2009-039      4,438   06/19/09
 02/28/09      Update IDC to 33.32% of Direct Expense       2009-040      6,527   06/19/09
 05/31/09      Update IDC to 33.32% of Direct Expense       2009-042      6,454   06/19/09
                                                       5
                                               TOTAL                   $19,082
Source: The YST General Ledger

      According to the OJP Financial Guide, recipients shall report the actual
expenditures and unliquidated obligations incurred for the reporting period on
each financial report. Also, the award recipients should report program
outlays and revenue on a cash or accrual basis in accordance with their
accounting system. We reviewed all 20 FSR/FFRs for accuracy. As shown in

        5
          Differences in totals throughout the report are due to rounding (the sum of
individual numbers prior to rounding may differ from the sum of the individual numbers
rounded).

                                            14

Exhibit 9, there were no expenditures to report until FSR number 5, and all
FSR/FFRs submitted after funds were obligated were inaccurate in cumulative
totals.

EXHIBIT 9: FINANCIAL REPORT ACCURACY
                                                     CUMULATIVE
                                    CUMULATIVE      EXPENSES PER
REPORT       REPORT PERIOD          EXPENSE PER       GENERAL      CUMULATIVE
 NO .        FROM-TO DATES            REPORT           LEDGER      DIFFERENCE
   1       07/01/07 - 09/30/07       $ -              $   -          $ -
   2       10/01/07 - 12/31/07           -                -              -
   3       01/01/08 - 03/31/08           -                -              -
   4       04/01/08 - 06/30/08           -                -              -
   5       07/01/08 - 09/30/08          4,989            8,668         3,679
   6       10/01/08 - 12/31/08         26,796           32,896         6,100
   7       01/01/09 - 03/31/09         46,710           57,494        10,784
   8       04/01/09 - 06/30/09         66,118           83,547        17,430
   9       07/01/09 - 09/30/09         83,667          103,363        19,696
  10       10/01/09 - 12/31/09        109,882          127,312        17,430
  11       01/01/10 - 03/31/10        130,842          148,272        17,430
  12       04/01/10 - 06/30/10        150,574          168,004        17,430
  13       07/01/10 - 09/30/10        170,131          188,822        18,691
  14       10/01/10 - 12/31/10        193,467          210,679        17,212
  15       01/01/11 - 03/31/11        213,387          230,599        17,212
  16       04/01/11 - 06/30/11        236,235          253,447        17,212
  17       07/01/11 - 09/30/11        261,805          279,500        17,695
  18       10/01/11 - 12/31/11        280,762          298,458        17,695
  19       01/01/12 - 03/31/12        294,587          312,282        17,695
  20       04/01/12 - 06/30/12       $306,793         $324,488      $17,695
Source: Grants Management System and the YST General Ledger

      As seen in the cumulative difference column, every FSR/FFR
understated the cumulative expenses as shown in the accounting records.
With FSR number 8, the total understatement was $17,430, the majority of
which was from the $19,082 in indirect costs backdated into the general
ledger on June 19, 2009.

      According to the YST Contracts Specialist, the general ledger expense
summaries provided to him only contained the “Expenditures Period To Date”
which were the expenditures charged to the grant for that specific quarter.
To complete the cumulative federal share of expenditures on the FSR/FFR he
added the totals for the current quarter to the previous amount reported as
the cumulative on the previous FSR/FFR. This action perpetuated the error
since the cumulative totals were never verified. To correct the FFRs, the
OVW requested that the YST correct and resubmit FSR number 20 with
remarks explaining the discrepancy. The YST did not accomplish this revision

                                        15

and in fact submitted the next FFR (number 21) with the same error. As a
result, all of the FSR/FFRs, once expenditures began, were inaccurate, with
actual expenses understated. The most recent FFR is understated by
$17,695. We recommend the YST implement procedures to ensure the
accuracy of the financial reports.

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, Categorical Assistance Progress
Reports (Progress Reports), describing the performance of activities or the
accomplishment of objectives, are due semi-annually on January 30 and July
30 for the life of the award. With the October 2009 revision to the OJP
Financial Guide, Progress Reports must be submitted online through the
Grants Management System (GMS). The Semi-Annual Progress Reports for
Grants to Indian Tribal Governments Program are pro forma documents
online in GMS.

       As mentioned previously in the “Prior Audits” section pertaining to
Single Audits and a site visit by the OVW, there were concerns about the
timeliness and accuracy of reports. As a result of these concerns, we
determined that we would expand our sample of progress reports to include
all 10 reports for timeliness only. We reviewed the last two semi-annual
progress reports for accuracy.

      Exhibit 10 shows all of the progress reports were late ranging from 11
to 384 days.

EXHIBIT 10: SEMI-ANNUAL PROGRESS REPORT TIMELINESS
         REPORT PERIOD
 NO.    FROM - TO DATES   REPORT DUE DATE SUBMITTED DAYS LATE
  1   07/01/07 - 12/31/07  01/30/08     02/17/09      384
  2   01/01/08 - 06/30/08  07/30/08     02/17/09      202
  3   07/01/08 - 12/31/08  01/30/09     03/05/09       34
  4   01/01/09 - 06/30/09  07/30/09     09/10/09       42
  5   07/01/09 - 12/31/09  01/30/10     08/10/10      192
  6   01/01/10 - 06/30/10  07/30/10     08/31/10       32
  7   07/01/10 - 12/31/10  01/30/11     10/24/11      267
  8   01/01/11 - 06/30/11  07/30/11     10/26/11       88
  9   07/01/11 - 12/31/11  01/30/12     02/10/12       11
 10   01/01/12 - 06/30/12  07/30/12     08/10/12       11
Source: Grants Management System and OJP Financial Guide

     We also reviewed Progress Reports for accuracy and content.
According to the OJP Financial Guide, the funding recipient agrees to collect

                                         16
data appropriate for facilitating reporting requirements established by Public
Law 103-62 for the Government Performance and Results Act (GPRA). The
funding recipient will ensure that valid and auditable source documentation is
available to support all data collected for each performance measure specified
in the program solicitation. Additionally, special condition eight of the award
documents states that under GPRA and VAWA 2000, grantees are required to
collect and maintain data that measure the effectiveness of their grant-
funded activities. Accordingly, the grantee agrees to submit semi-annual
electronic progress reports on program activities and program effectiveness
measures. Information that grantees must collect under GPRA and VAWA
2000 includes, but is not limited to: (1) number of victims receiving
requested services; (2) number of persons seeking services who could not be
served; (3) number and percentage of arrests relative to the number of
police responses to domestic violence incidents; and (4) number of tribes
receiving grant funding.

      In order to verify the information content in Progress Reports, we
reviewed the last two Progress Reports submitted and compared it to the
GPRA requirements as listed in special condition eight of the award
documents. We found that the pro forma reports generally provided
appropriate questions and complied with the requirements of GPRA as
defined in the special conditions of the award documents.

      We asked the YST for support documents for the Progress Reports in
order to verify the accuracy of the reports and to verify claims of
accomplishment of goals and objectives. However, the YST was unable to
provide any documentation of any of the Progress Reports. According to the
Acting Program Director, she replaced the previous Program Director in
November 2011, and the previous Program Director had written all the prior
Progress Reports. However, there were no records available for verifying
Progress Reports. The Acting Program Director had to prepare the Progress
Report for the period ending December 31, 2011 based on her memory of
events for the previous 6 months.

      As a result, we were unable to verify any of the information in the
Progress Reports, including the GPRA information. We recommend the YST
implement procedures to ensure the timely submission of Progress Reports,
and to ensure they are accurate and that support documents are collected
and maintained.




                                      17

Program Performance and Accomplishments

  As previously mentioned in this report, the Grants to Indian Tribal
Governments Program (Tribal Governments Program) has multiple goals and
awards funds to:

  •	 Develop and enhance effective plans for tribal governments to respond
     to violence committed against Indian women;

  •	 Strengthen the tribal criminal justice system;

  •	 Improve services available to help Indian women who are victims of
     violence;

  •	 Create community education and prevention campaigns;

  •	 Address the needs of children who witness domestic violence;

  •	 Provide supervised visitation and safe exchange programs;

  •	 Provide transitional housing assistance; and

  •	 Provide legal advice and representation to survivors of violence who
     need assistance with legal issues caused by the abuse or the violence
     they suffered.

Program Objectives

      For grant 2007-TW-AX-0042, we reviewed documents submitted by
YST officials in its application for the grant award and determined the
established objectives were to:

  •	 Improve services available to victims of domestic violence and sexual
     assault, and

  •	 Work with the community to create an education and prevention 

     campaign to inform members of the community about domestic

     violence and sexual assault issues.


Analysis of Program Performance

      In order to evaluate program performance, we looked at the original
Project Timetable, award special conditions, Progress Reports, and end user
interviews. We believe the combination of these items should provide a


                                     18

reasonable indication of the success of the YST in achieving the stated goals
and objectives.

        The YST provided a Project Timetable of activities planned to achieve
its goals and objectives (See Appendix IV). We believe some of these
activities are unclear or vague, so we asked the Acting Program Director for
clarification and for the status of the timetable. However, she was unaware
of the timetable as she had recently been placed in this position and there
was no documentation available from the previous Program Director.
According to her best estimates, the timetable activities have not all been
completed. It appears these are mostly related to the second objective of
increasing community awareness and education about domestic violence.
Overall, the timetable did not provide useful insight into the accomplishment
and progress of meeting performance goals and objectives.

      In reviewing the award special conditions, we confirmed the YST had
created a marketing brochure, entered into a Memorandum of Understanding
with the South Dakota Network Against Violence and Sexual Assault, and
submitted semi-annual Progress Reports. We viewed these as indications
that the YST was making progress in achieving its goals and objectives.

      We reviewed the Progress Reports to evaluate the progress in achieving
performance goals and objectives. However, as mentioned previously in the
“Categorical Assistance Progress Reports” section, the YST could not provide
any support documents for the Progress Reports. While the Progress Reports
provided information and statistics indicating continuous success in achieving
goals and objectives, without support documentation, we were unable to
verify the accuracy of these claims.

       And finally, we attempted to interview end users to gain insight into the
effectiveness of the program and success in accomplishing goals and
objectives. We were only able to interview one victim. The testimonial of the
victim indicated that the YST has successfully increased services available to
victims of domestic violence and that the services provided were valuable
and highly rated. However, more work was needed in the areas of
community awareness and education concerning domestic violence.




                                      19

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under grant 2007-TW-AX-0042 were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant award, and to determine program performance and
accomplishments. We performed detailed transaction testing and examined
the YST’s accounting records, budget documents, financial and progress
reports, and operating policies and procedures. Specifically, we found:

  •	 the accounting system allowed backdating transactions after the end of
     the reporting period;

  •	 drawdowns were unsupported and exceeded actual expenses by
     approximately $141,808, resulting in the YST returning $55,409 to the
     OVW;

  •	 unallowable indirect costs totaling $19,082 and bank charges totaling
     $160 were reimbursed with grant funds;

  •	 some training events and similar activities were not relevant to the
     grant goals and objectives resulting in $12,053 in unallowable
     questioned costs;

  •	 training events and similar activities were not pre-approved by the
     OVW, as required, resulting in $14,795 in questioned costs;

  •	 a traveler was reimbursed twice for mileage and for hotel bills that
     were direct billed to another agency resulting in $953 in questioned
     costs;

  •	 documentation for grant-related transactions was sometimes missing or
     incomplete resulting in $13,428 in questioned costs;

  •	 timecards to support some payroll records were missing;

  •	 Federal Financial Reports and Financial Status Reports were inaccurate;
     and

  •	 Progress reports were not submitted timely and were unsupported.




                                     20

Recommendations

We recommend that the OVW coordinate with the YST to:

1.	    Implement procedures to ensure that accounting periods are closed out
       timely and backdating is eliminated.

2.	    Implement procedures to ensure drawdowns are supported and funds
       drawn are the minimum needed for disbursements to be made
       immediately or within 10 days.

3.	    Remedy the $19,242 in unbudgeted indirect costs and bank charges,
       and implement procedures to ensure unbudgeted items cannot be
       charged to the grant award.

4.	    Remedy the $12,053 in unallowable questioned costs for training that
       was not consistent with the award objectives, and implement
       procedures to ensure all expenditures are within the award budget and
       applicable to the overall goals and objectives.

5.	    Remedy the $14,795 in unallowable questioned costs due to failure to
       acquire prior OVW approval for training and similar events, and
       implement procedures to ensure adherence to award special conditions
       including the pre-approval of training funds by the granting agency.

6.	    Implement procedures to ensure travel reimbursements only include
       legitimate expenditures that are not paid by other agencies.

7.	    Remedy the $13,428 in unsupported questioned costs as a result of
       missing or incomplete documentation, and implement procedures to
       ensure all expenditures are properly supported.

8.	    Implement procedures to ensure timecards accompany all payroll
       records and are properly maintained.

9.	    Implement procedures to ensure Federal Financial Reports are properly
       supported and accurately reflect actual outlays.

10.	   Implement procedures to ensure support documentation for Progress
       Reports is collected and properly maintained, and ensure the timely
       submission of reports.




                                     21

                                                               APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of the audit was to examine
performance in the key areas of grant management that are applicable and
appropriate for the grant under review. Those areas included: (1) internal
control environment, (2) drawdowns, (3) grant expenditures, (4) budget
management and control, (5) financial status and progress reports,
(6) program performance and accomplishments, (7) grant closeout activities,
(8) property management, (9) matching costs, (10) program income, (11)
monitoring of sub-grantees and contractors, and (12) special grant
requirements. We found that grant closeout, property management,
matching costs, program income, and monitoring of sub-grantees and
contractors were not applicable to this grant audit.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. This was an audit of the Office on Violence Against Women,
Grants to Indian Tribal Governments Program, Yankton Sioux Domestic
Violence Project, Grant No. 2007-TW-AX-0042. Our audit concentrated
on, but was not limited to, the award start date of September 1, 2007,
through September 30, 2012. The YST had a total of $349,996 in
drawdowns through July 24, 2012.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria we
audit against are contained in the OJP Financial Guide and the award
documents.

       In conducting our audit, we performed sample testing for grant
expenditures. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grant reviewed, such as
dollar amounts or expenditure category. Based on findings in the 2011
Single Audit report and the April 2011 OVW site visit report, we selected a
sample of all expenditures for Grant No. 2007-TW-AX-0042, except for
payroll-related expenditures (payroll and fringe benefits), which were

                                      22

sampled and tested separately, and indirect costs and bank charges, which
were unbudgeted and unallowable. This non-statistical sample design does
not allow projection of the test results to the universes from which the
samples were selected for payroll related expenditures and indirect costs.

      In reviewing the drawdowns and FSR/FFRs, we found the YST had
overdrawn the grant by approximately $141,808. As a result, we increased
our sampling to check 100% of drawdowns and FSR/FFRs. In addition, we
reviewed the timeliness and accuracy of financial reports and progress
reports and evaluated performance to grant objectives.

      We reviewed the capabilities of FUTEX, the YST’s accounting system,
and obtained and reviewed a copy of the YST Finance Policies; however, we
did not test the reliability of the financial management system as a whole.




                                     23

                                                                       APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS6

QUESTIONED COSTS                                        AMOUNT             PAGE

Unbudgeted Indirect Cost Expenditures                    $   19,082          8

Unbudgeted Bank Charges                                          160         8

Unallowable Direct Cost Expenditures                         12,053          10

Unapproved Direct Cost Expenditures                          14,795          10

Unsupported Direct Cost Expenditures                         13,428          10

Total Questioned Costs:                                  $ 59,518            9

Minus Duplicated Questioned Costs 7                       (15,757)           10

TOTAL DOLLAR-RELATED FINDINGS                            $ 43,761            11




      6
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.
      7
          We identified duplicate questioned costs between the unsupported, unapproved,
and unallowable categories of questioned costs. Therefore, the unapproved costs of $14,795
due to failure to obtain OVW approval was reduced by $10,803 to $3,993, and the
unsupported costs due to documentation issues was reduced by $4,955 to $8,473. Any
minor differences in totals were due to rounding.

                                           24

                                                                 APPENDIX III
                      DETAILED QUESTIONED COSTS
          Unallowable Costs Resulting From Unbudgeted Expenses
CHECK #     DATE                  DESCRIPTION                    QC       DUPLICATE
  N/A     11/13/09 Bank Charges                              $    20.00      No
  N/A     11/19/09 Bank Charges                                   20.00      No
  N/A     11/20/09 Bank Charges                                   20.00      No
  N/A     12/10/09 Bank Charges                                   20.00      No
  N/A     12/14/09 Bank Charges                                   40.00      No
  N/A     02/28/11 Commercial State Bank                          20.00      No
  N/A     04/29/11 Commercial State Bank                          20.00      No
  N/A     09/30/08 Update IDC to 33.32% of Direct Expenses      1662.32      No
  N/A     11/30/08 Update IDC to 33.32% of Direct Expenses      4438.48      No
  N/A     02/28/09 Update IDC to 33.32% of Direct Expenses      6526.89      No
  N/A     05/31/09 Update IDC to 33.32% of Direct Expenses      6454.33      No
    TOTAL UNALLOWABLE RESULTING FROM UNBUDGETED EXPENSES     $19,242.02

     Unallowable Costs Resulting From Direct Transaction Testing
CHECK #     DATE                  DESCRIPTION                    QC       DUPLICATE
 1499      10/03/08   Child Abduction Training               $    58.50      No
 1517      12/23/08   Reimburse Travel                           347.50      No
 1535      03/25/09   Per Diem                                   175.50      No
 1535      03/25/09   Motel                                      319.96      No
 1535      03/25/09   Mileage                                    353.10      No
 1536      03/25/09   Per Diem                                   175.00      No
 1536      03/25/09   Motel                                      319.96      No
 1554      07/21/09   Taxi                                        18.00      No
 1554      07/21/09   Per Diem                                   288.00      No
 1554      07/21/09   Other Travel Expense                        67.00      No
 1554      07/21/09   Mileage                                    136.40      No
 1559      08/14/09   Taxi                                        46.00      No
 1559      08/14/09   Other                                       23.00      No
 1560      08/14/09   Per Diem                                    14.40      No
 1570      09/18/09   Per Diem                                    42.49      No
 1575      10/02/09   Per Diem                                    96.00      No
 1575      10/02/09   Motel                                      347.16      No
 1576      10/02/09   Per Diem                                    96.00      No
 1576      10/02/09   Motel                                      347.16      No
 1576      10/02/09   Mileage                                    353.10      No
 1577      10/02/09   Per Diem                                    96.00      No
 1577      10/02/09   Motel                                      347.16      No
 1577      10/02/09   Mileage                                    353.10      No
 1591      12/14/09   Per Diem                                   229.50      No
 1591      12/14/09   Motel                                      518.40      No
 1591      12/14/09   Mileage                                    334.40      No
 1656      01/19/11   Meals Reimbursement Sioux Falls, SD         31.69      No
 1700      06/16/11   Per Diem                                   213.50      No
 1700      06/16/11   Motel                                      258.42      No
 1700      06/16/11   Mileage                                    633.42      No


                                          25

1701    07/06/11   Rental Assistance                       $    200.00       No
1704    07/26/11   Per Diem                                     127.50       No
1704    07/26/11   Motel                                        242.00       No
1704    07/26/11   Mileage                                      334.40       No
1705    07/26/11   Per Diem                                     127.50       No
1707    08/03/11   Transitional Housing                         435.00       No
1714    08/24/11   Mileage                                      368.52       No
1716    08/24/11   Motel                                        403.30       No
1716    08/24/11   Mileage                                        0.82       No
1717    08/30/11   Domestic Assist/Transit. Housing             250.00       No
1723    10/05/11   Domestic Assist/Tran. Housing                650.00       No
1729    10/13/11   Domestic. Assist. Trans. Housing             240.00       No
1730    10/13/11   Domestic Assist. Trans. Housing              802.00       No
1737    11/23/11   Majestic View Townhome Apartments            418.00       No
1741    12/20/11   Per Diem                                      69.00       No
1743    12/21/11   Per Diem                                     138.00       No
1744    12/22/11   Per Diem                                     103.50       No
1745    12/22/11   Per Diem                                     103.50       No
1752    01/12/12   Per Diem                                      69.00       No
1771    03/29/12   Mileage                                      158.73       No
1776    05/08/12   Per Diem                                      69.00       No
1792    07/31/12   Meals - Sioux Falls, SD                      103.50       No
        TOTAL UNALLOWABLE COSTS FROM TRANSACTION TESTING   $12,053.09

                     Unapproved Direct Cost Expenditures
CHECK #    DATE                   DESCRIPTION                  QC        DUPLICATE
 1499     10/03/08   Child Abduction Training              $    58.50     Duplicate
 1535     03/25/09   Per Diem                                  175.50    Duplicate
 1535     03/25/09   Motel                                     319.96    Duplicate
 1535     03/25/09   Mileage                                   353.10    Duplicate
 1536     03/25/09   Per Diem                                  175.00    Duplicate
 1536     03/25/09   Motel                                     319.96    Duplicate
 1554     07/21/09   Taxi                                       18.00    Duplicate
 1554     07/21/09   Per Diem                                  288.00    Duplicate
 1554     07/21/09   Other Travel Expense                       67.00    Duplicate
 1554     07/21/09   Mileage                                   136.40    Duplicate
 1556     08/10/09   Per Diem                                  198.00        No
 1556     08/10/09   Motel                                     236.20        No
 1556     08/10/09   Mileage                                   334.40        No
 1557     08/10/09   Per Diem                                  198.00        No
 1557     08/10/09   Motel                                     472.40        No
 1559     08/14/09   Taxi                                       46.00    Duplicate
 1559     08/14/09   Other                                      23.00    Duplicate
 1575     10/02/09   Per Diem                                   96.00    Duplicate
 1575     10/02/09   Motel                                     347.16    Duplicate
 1576     10/02/09   Per Diem                                   96.00    Duplicate
 1576     10/02/09   Motel                                     347.16    Duplicate
 1576     10/02/09   Mileage                                   353.10    Duplicate
 1577     10/02/09   Per Diem                                   96.00    Duplicate
 1577     10/02/09   Motel                                     347.16    Duplicate
 1577     10/02/09   Mileage                                   353.10    Duplicate

                                          26

 1591    12/14/09 Per Diem                                $  229.50    Duplicate
 1591    12/14/09 Motel                                       518.40   Duplicate
 1591    12/14/09 Mileage                                     334.40   Duplicate
 1636    11/09/10 Per Diem                                    178.50       No
 1636    11/09/10 Mileage                                     307.50       No
 1637    11/09/10 Per Diem                                    178.50       No
 1637    11/09/10 Mileage                                     307.50       No
 1639    11/19/10 Per Diem                                   (51.00)       No
 1639    11/19/10 Motel                                        93.00       No
 1640    11/29/10 Per Diem                                    115.00       No
 1640    11/29/10 Mileage                                     125.00       No
 1641    11/29/10 Per Diem                                    115.00       No
 1641    11/29/10 Mileage                                     125.00       No
 1653    01/19/11 Per Diem                                    179.00       No
 1653    01/19/11 Motel                                       107.06       No
 1653    01/19/11 Mileage                                     308.55       No
 1654    01/19/11 Per Diem                                    179.00       No
 1654    01/19/11 Motel                                       107.06       No
 1655    01/19/11 Per Diem                                    179.00       No
 1700    06/16/11 Per Diem                                    213.50   Duplicate
 1700    06/16/11 Motel                                       258.42   Duplicate
 1700    06/16/11 Mileage                                     633.42   Duplicate
 1701    07/06/11 Rental Assist.                              200.00   Duplicate
 1704    07/26/11 Per Diem                                    127.50   Duplicate
 1704    07/26/11 Motel                                       242.00   Duplicate
 1704    07/26/11 Mileage                                     334.40   Duplicate
 1705    07/26/11 Per Diem                                    127.50   Duplicate
 1707    08/3/11   Transitional Housing                       435.00   Duplicate
 1714    08/24/11 Mileage                                     368.52   Duplicate
 1716    08/24/11 Motel                                       403.30   Duplicate
 1716    08/24/11 Mileage                                       0.82   Duplicate
 1717    08/30/11 Domestic Assist/Transit. Housing            250.00   Duplicate
 1723    10/05/11 Domestic. Assist. Trans. Housing            650.00   Duplicate
 1729    10/13/11 Domestic. Assist. Trans. Housing            240.00   Duplicate
 1730    10/13/11 Domestic Assist. Trans. Housing             802.00   Duplicate
 1737    11/23/11 Majestic View Town. Apts.                   418.00   Duplicate
TOTAL UNALLOWABLE COSTS RESULTING FROM NO OVW APPROVAL   $14,795.45


   Unsupported Costs Resulting From Direct Transaction Testing
CHECK #    DATE                   DESCRIPTION                 QC       DUPLICATE
 1497     10/01/08   Reimburse Travel/Credit Card        $    207.72      No
 1498     10/03/08   Travel Sioux Falls: Court Hiring         100.00      No
 1533     03/04/09   Reimburse Travel                         248.24      No
 1535     03/25/09   Motel                                    319.96   Duplicate
 1536     03/25/09   Motel                                    319.96   Duplicate
 1554     07/21/09   Taxi                                      18.00   Duplicate
 1554     07/21/09   Per Diem                                 288.00   Duplicate
 1554     07/21/09   Other Travel Expense                      67.00   Duplicate
 1554     07/21/09   Mileage                                  136.40   Duplicate
 1559     08/14/09   Taxi                                      46.00   Duplicate
 1559     08/14/09   Other                                     23.00   Duplicate

                                           27

  1560     08/14/09 Mileage                                       $   162.25       No
  1577     10/02/09 Motel                                             347.16     Duplicate
  1614     06/08/10 Per Diem                                           51.31       No
  1614     06/08/10 Mileage                                           150.00       No
  1624     09/01/10 Assistance                                         50.00       No
  1635     11/05/10 Asst.                                             350.00       No
  1637     11/09/10 Per Diem                                          178.50     Duplicate
  1648     12/15/10 INV#7003                                           46.00       No
  1648     12/15/10 INV#7003                                           46.50       No
  1650     12/15/10 Deposit Rent                                      850.00       No
  1652     01/18/11 Travel Assist.                                    100.00       No
  1657     01/19/11 Bus Ticket Client                                 202.00       No
  1678     04/07/11 Emergency Assist.                                 250.00       No
  1679     04/13/11 Personal Hygiene Supplies                         250.00       No
  1681     04/13/11 Emergency Shelter                                 268.60       No
  1683     04/28/11 Emergency Services                                250.00       No
  1690     05/19/11 7Days Victim/Child                                497.70       No
  1692     06/01/11 Need Assist.                                      450.00       No
  1694     06/01/11 Need Assist.                                      250.00       No
  1697     06/08/11 Wireless Computer Router                          150.00       No
  1699     06/09/11 Office Supplies                                   300.00       No
  1701     07/06/11 Rental Assist.                                    200.00    Duplicate
  1704     07/26/11 Mileage                                           315.54    Duplicate 8
  1706     07/27/11 DV Assist.                                        232.92       No
  1707     08/03/11 Transitional Housing                              435.00     Duplicate
  1709     08/17/11 INV#FOLO#116404 Sarah Hare                        355.50       No
  1710     08/17/11 Domestic Violence Assistance                      188.12       No
  1711     08/17/11 Assist.                                           300.00       No
  1712     08/22/11 Motel                                             231.00       No
  1713     08/24/11 Domestic Violence Assist.                         188.13       No
  1716     08/24/11 Motel                                             318.00    Duplicate
  1717     08/30/11 Domestic Assist/Transit. Housing                  250.00    Duplicate
  1723     10/05/11 Domestic. Assist. Trans. Housing                  650.00    Duplicate
  1729     10/13/11 Domestic. Assist. Trans. Housing                  240.00    Duplicate
  1730     10/13/11 Domestic Assist. Trans. Housing                   802.00    Duplicate
  1756     02/03/12 Court Hearing-2/14/2012                           150.00       No
  1756     02/03/12 Court Hearing-2/10/2012                           150.00       No
  1757     02/03/12 Furnace Installation                              466.67       No
  1760     02/09/12 Other Travel Expense                               75.00       No
  1760     02/09/12 Motel                                             355.32       No
  1766     03/07/12 Assist.                                           100.00       No
  1779     05/17/12 Emergency Assist.                                 300.00       No
  1787     07/17/12 Emergency Assist.                                 150.00       No
               TOTAL UNSUPPORTED FROM TRANSACTION TESTING          13,427.50
                 GRAND TOTAL UNALLOWABLE AND UNSUPPORTED           59,518.06
                             GRAND TOTAL WITHOUT OVERLAPS         $43,760.76
Source: The YST General Ledger Expenses Records



      8
         Invoice 1704 for $340.40 was questioned in total as unapproved. Of the total
invoice $315.54 represents the portion of this invoice that was unsupported.

                                            28
                                                                     APPENDIX IV
                                   PROJECT TIMETABLE
                Activity                Prior      Year 1        Year 2        Year 3
                                         to   Q1   Q2 Q3 Q4 Q1   Q2 Q3 Q4 Q1   Q2 Q3 Q4
                                       Award
 1. The YST Child Victim Advocate
     meets with Tribal Council
     regarding governing board
 2. Potential governing board
     members are contacted
 3. Funding awarded
 4. The YST Child Victim Advocate
     meets with SD Network
 5. Governing board meetings
     (monthly)
 6. Governing board develops job
     descriptions for domestic violence
     advocates
 7. The YST advertises for domestic
     violence advocate positions
 8. Equipment purchased
 9. The YST and governing board
     conduct applicant interviews
 10. The YST conducts applicant
     background checks
 11. The YST hires staff
 12. The YST Child Victim Advocate
     provides basic employee training
 13. SD Network provides multi­
     disciplinary domestic violence
     training
 14. Governing board meets with
     educators to develop curriculum
 15. Incorporation of domestic
     violence issues into school
     curriculums
 16. Governing board, Braveheart,
     Sacred Circle develop education
     outreach component
 17. Governing board, SD Network,
     others develop public marketing
     component
 18. Begin production of public
     marketing material
 19. Internal project evaluation
Source: The YST Project Narrative

Note: Numbering added by auditor for easier reference.





                                                 29
                                                                                               APPENDIX V

                THE YANKTON SIOUX TRIBE RESPONSE
                       TO THE DRAFT REPORT


Box 1153                                                                                 (605) 384·3804 1384-3641
Ws.gnflr, SO 57380                                                                              FAX (605) 384·5896

OFFICERS:                                                                                                  COUNCIL:
Th",m"n Coo.rrnoyElr, Sr., Chairman                                                                     _Ia!ll'ln ('.nnkll
IdEi Ashes, VICe Gh>oirwom"n                                                                     Nicholas eu.,...nQyer
Glenford Su lly, Se<:ret,,'Y                                                                         Gail HubbeJing
                                                    . ....... c"""""- .....
Leo O'CQIlIlOr, THIEI~Urer                                                                           Brenda Z"phi",
                                                          ""
                                                          ---                                     Jody Al len Zephjer




        March 15, 2013

        David M, Sheeren
        Regional Audit Manager
        Denver Regional Audit Office
        Office of the Inspector General
        U.S. Department of Justice
        1120 Lincoln Street, Suite 1500
        Denver, CO 80203


        Dear Mr. Sheeren;

       In response to your Audit of the Off,ce On V'olence Agzunst Women, Gr~nts to Indian Tribal
       Govemroent§ Program, Grant No, 2007-TVVAX 0042 lolalil 'l-l $389,996 liwarded to the
       Yankton Sioux Tribe (YSD wagner, South pakota dated February 22 , 2013, the following is
       the official response to the recommendations.

                 1. Implement procedures to ensure that accounting periods are closed out timely and
                    post-dating is eliminated.

                     Agreed. On January 1, 2013, a new accounting software system (Sage MI P Fund
                     Accounting) was implemented that gives us the ability to close periods (month,
                     quarter, and year). Closing the periods will eliminate the possibility of post-dating
                     transactions. We are currently in the process of completing the conversion into the
                     new system and will be using this feature.

                2. Implement procedures to ensure drawdowns are supported and funds drawn are the
                   minimum needed for disbursements to be m&ds immediatsly or within 10 dins.

                     Agreed. Our current procedure is that the Contracts Specialist receives weekly
                     reports from the Payroll Officer and Accounts Payable Clerk indicating the amount of
                     drawdown funds necessary to support program expenditures for that week. The
                     Contracts Specialist then submits a drawdown request to the funding agency.
                     Supporting documentation is attached to each drawdown request.

                3. Remedy the $19,242 in unbudgeted indirect costs and bank charges, and implement
                   procedures to ensure unbudgeted items cannot be charged to grant award _




                                                           30

    Agreed. An adjusting journal entry was made 9/30(12 to reverse Ihese expenses
    from the Violence Against Women program. Expenditure reports are currently being
    reviewed by the Director, Comptroller, Administrative Officer, and Contracts
    Specialist to ensure unbudgeled items are not charged 10 the grant award.

4. Remedy the $12 ,053 in unallowable questioned costs for training that was not
   consistent with the award objectives and implement I?fQcedures to ensure all
   expend'lures are within the award budge! and applicable to the overall goals and
   objectives.

   Agreed. The YST Travel Coordinator will ensure that proper approval from Ihe
   funding agency has been obtained prior to issuing travel advance checks.            Such
   documentation will be attached to check requests.

5. R@m@dy th@ $3 993 in unallowable questioned cosls due to failuf@ to acquire priOf
   O'lNoJ approval for training and similar evenls and implement proC8dures to ensure
   adher!;lnc!;I to award special cond ·tiom~ including the Pfeapproval of training fund!> by
   the grant.

   Agreed. The YST Travel Coordinator will ensure that proper approval from the
   funding agency has been obtained prior to issuing travel advance checks. Such
   documentation will be attached to check requests.

6. Implement procedures to ensure travel reimbursements only include legjtimate
   expend"tures thai are nol paid by cooperatiye partners.

   Agreed. The YST Travel Coordinator is currently reviewing travel expense reports to
   verify their accuracy and to ensure that only legitimate expenditures are included.
   Any expenditures deemed illegitimate are to be paid for by the employee.

7. Remedy the $8,473 in unsuPRQr1ed questioned costs as a result of missinc or
   incomplete documentation and implement procedures to ensure all expenditures are
   properly supported.

   Agreed.    Program Directors must submit a check request with supporting
   documentation attached to the Accounts Payable Clerk. The Accounts Payable
   Clerk does not process a check. without proper documentation and signatures.
   Program Directors have been instructed to carefully monitor program expenditures to
   ensure that they fall Within the scope of the approved bUdget and include supporting
   documentation.

8. Implement procedyres to ensyre timecards accompany all payroll records and are
   properly maintajned,

   Agreed. Employee timecards are maintained by Human Resources and the Payroll
   department.  Timecards are attached to weekly payroll reports as supporting
   documentation and filed.

9. Implement procedures to ensure Federal Financial Reports are properly supported
   and accurately reflect actual outlays.


                                         2




                                         31

         Agreed. The Contracts Specialist is filing all Federal Financial Reports. FFR's are
         prepared using supporting documentation obtained from the accounting system and
         attached to the reports.

      10. Implement procedures to ensure support documentation for Progress Reoorts is
          collected and pmperly maintained and ensure the timely submission of reports.

         Agreed. Program Directors, Monilors and the Administrative Officer will be working
         together more closely to ensure that progress reports and reporting deadlines are
         maintained . In addition , our new accounting software has an optional module (Grant
         Administration) thai wa will be looking into. II is our underslanding that the module
         has the capability of tracking all of our grant awards and reporting due dates to help
         us better monitor them.




~7~ckr~
Thurman Cournoyer, Chairman
YANKTON SIOUX TRIBE




                                             3




                                             32

                                                                                                     APPENDIX VI

  THE OVW RESPONSE TO THE DRAFT REPORT



                                                                    I J.S. De,Jllrlmelll of ,Iustice
                                                                    Office on Violcllce Against Womelf
                                                                     W"-<hi,,C'''''.   ne. lO.J1/)




                                                                                              March 19,2013



1\-1"~ MORANIJUM



TO:                               Duvid M. Shcl:rcn
                                  Rcgiona l Audit Managcr
                                  Oenvcr Regional Audil Office

FRUM:                             !:Jea HQIlson1 1
                                  Acting DirectO'r
                                                      G---
                                  Ollil:c un Viull:lll:c Ag.ui llst Womcn

                                  Rodney Samuels                         ~
                                  Aurlit I .illison/Staff Accounta nt
                                  Office on Violence Against Women

SUBJECT:                          Response to the Draft Audit Report, Yank ton Sioux Tribe


This mClTmflmduHI is ill rCHpullsC ttl your cUTTcspu nd cm:l: datcd Fcbruary 22, 20 13 tnlllsmilling
the above draft Follow-Up and Rev iew Investigation report for the Yankton Sioux Tribe. We
consider the subject report resolved and request wri tten acceptance of this action from your
office.

The report contains tell re<:onullendations, SK,473 in WlSUpported costs, S19,242 in unbudgeted
costs, und $ 16,046 in unallowuble cost. The following is our annlysiH of the nudi l
n.:Cllmmcmiulions.

    1) Implement procedures to ensure tbat aecountinJl: periods are closed out timely and
       pos t-dlltillg is elimjll llted.

       We agree wilh this recomlm:ndation. We will coordinate wit h the Yankton Sioux Tribe
       Iu uh luin II l:0py ul" pHJlx:durcli im pil:H!enll:d tll l:IlHUTC tlml ul:l:lI un li ng PCrilKiH IITC ciUllCd
       uut timely !lnd post-dating is eliminated.




                                                       33

2) Implement procedures to ensure drawdo ..... ns are supported and funds dra ..... n are
     lh c lIIinimum rrcedcd fur disbursemc nts to lie mlolde immediately or within 10 days.

     We agree with the recommendat ion. We will coordi nate with Yankton Sioux Tribe to
     obtain a copy of procedures implemented to cn~urc drdwdowns arc suppo rted an d funds
     drawn are the minimum needed for disbursements to be made immediately or within IU
     days.


3) Remedy the $ 19,242 in unbudgeted indirect costs and bllnk charges, and implement
   pro<:edllres to ensure lin budgeted itenu cannot be charged to grant award.

     We agree with the cC\.'Ommcmlution. We will coordi nate wi th the Yankton ~ioux T ribe to
     rt:mooy $ 19,242 in unbudgt:ted indin:ct costs and bank charges identifirtl in your report
     and also to obtain a copy of procedures implemented to ensure unb udgeted items cannot
     be charged to grant awards.

4) Re medy the Sl2,053 in unallowable question costs for trainlD~ that was nol
   cOlISislellt with the awa rd objectives, and implement procedures to ell 5LIre 10111
   expenditures lire within the IIward budgct lind IIpplicllblc to the overall guals and
   objectives.

     We IlgrCC wi th the recommendation. We wi ll coordinate with the Yankton ~ioux Tribe to
     remedy $12,053 in unallowable questioned costs identifierl in your report and also to
     oht Ri n R copy of procedures implemented to ensure all e;o;pcnditures ~rc w ithin the lIwllrd
     budget and applicable to the overall goals and obj ectives.

5) Remedy the $3,993 in unallowable questioned costs due to failure Co acquire prior
   OVW approval rur training lint.! similar cvcnts, IIlIt.! implement prucct.!u rc~ tu cnsurc
   adherence to award s)lccia) conditions including the prcapproval or training rund by
     the grant.

     Wc agn.:c with the fC(:ommcndation. We will coordinate with the Yankton Siou,.-; Tri be to
     remedy $3,993 in unallowable questionerl costs identified in yo ur report and also to
     obtain a copy o f proccdurcs implemented to ensu re adherence to awa rd sl>ccial cond itions
     including the preapproval of training fund by the grant.

6)    Implement procedures to ensure travel reimbursements only Include legltllllllte
     expenditures that arc not paid by cooperative partners.

     We agree wi1h the rt:COllllTI\:ndal iO Il . We will coordina1e with Yan kton Sinu)"; T rihc to
     obtain a copy of procedures to ensure that tmvel reimbursemen ts only include legitimate
     cxpenditures that arc not paid by cooperative partners.




                                                34

     7) Remedy the $8,473 in unsupported questioned costs as a result of mis5i1lg or
        incomplete documcntntion , nnd implement procedu res to ensure all expenditures
        IIrc proper ly supported.

        We agree wi th the rceuTlunemJution. We will coordinate with Yankton Sioux Tribe to
        remedy $8,473 in un~uprorted questioned costs and also to obtain a copy of procedures
        lu ensure lhul ull expenditures are properly supported.

     8) Implement procedures to ensure timeca rds acco mpan y a ll pay ro ll fei:ords and are
        properly maintained.

        We agree with the recommendation. We will coord inate with Ymlkton Sioux Tribe to
        obtain a copy of procedures to ensure thnt timecards accompany all payroll records and
        arc properly main tained..

     9) Implement procedures to ensure Federal FilllUlcinl Reports arc properly s upported
        and u1.:1.:unatcly reflect a ctual outlays.

        We agree with the recommendutiun. We wi ll coordinate wit h Yankton Sioux Tribe to
        obtain a copy of procedures to ensure that Federal Financial Rep01ts are properl y
        supporll- lI and ulXunllcly rened adual outlays.
                "

     to) Implement procedures to ensure support doc umenta tion for Progress Reports is
         collected and properly maintained, and ensure the timely suhmission of reports.

        We agree with the recommendation. We will coord inate with Yankton Sioux Tribe to
        obtain a copy o r procedures to ensure support documentation for Progress Reports is
        collected uml properly maint!lincd, !lnd ensure the timely submission ofreports.

We apprcl'iate the opJXlrlunily 10 review and comment on the draft report. If you have any
questions or requi re !ldditional infrmnation, plCilse contact Rodney Samuels of my staff at
(202) 5 14-9820.

CC    Angela Woot!
      Accounting Ollicer
      Office on Violence Against Women (OVW)

      Louise M. Duhamel, Ph. D.
      Acting Assistant Director
      Aud it Liaiso n Group
      Justice Management Division

      Kimberly Woodard
      Program Specialist
      Office on Violence Against Women




                                                35

                                                            APPENDIX VII

               OFFICE OF THE INSPECTOR GENERAL

              ANALYSIS AND SUMMARY OF ACTIONS

                NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office on Violence
Against Women (OVW) and the Yankton Sioux Tribe (YST). The OVW’s and
the YST’s responses are incorporated in Appendices V and VI of this final
report. The following provides the OIG analysis of the responses and
summary of actions necessary to close the report.

Recommendation Number:

1. 	   Resolved. Both YST and OVW concurred with our recommendation to
       implement procedures to ensure that accounting periods are closed out
       timely and back-dating is eliminated. The OVW stated in its response
       they will coordinate with the YST to obtain a copy of procedures
       implemented to ensure that accounting periods are closed out timely
       and back-dating is eliminated.

       This recommendation can be closed when we receive evidence that the
       YST has implemented procedures to ensure that accounting periods are
       closed out timely and back-dating is eliminated.

2.	    Resolved. Both YST and OVW concurred with our recommendation to
       implement procedures to ensure drawdowns are supported and funds
       drawn are the minimum needed for disbursements to be made
       immediately or within 10 days. The OVW stated in its response they
       will coordinate with the YST to obtain a copy of procedures
       implemented to ensure drawdowns are supported and funds drawn are
       the minimum needed for disbursements to be made immediately or
       within 10 days.

       This recommendation can be closed when we receive evidence that the
       YST has implemented procedures to ensure drawdowns are supported
       and funds drawn are the minimum needed for disbursements to be
       made immediately or within 10 days.

3. 	   Resolved. Both YST and OVW concurred with our recommendation to
       remedy the $19,242 in unbudgeted indirect costs and bank charges,
       and implement procedures to ensure unbudgeted items cannot be
       charged to the grant award. The OVW stated in its response they will
       coordinate with the YST to remedy $19,242 in unbudgeted indirect

                                      36

       costs and bank charges identified in the draft report and also to obtain
       a copy of procedures implemented to ensure unbudgeted items cannot
       be charged to the grant award.

       This recommendation can be closed when we receive evidence that the
       YST has remedied the $19,242 in unbudgeted indirect costs and bank
       charges, and implement procedures to ensure unbudgeted items
       cannot be charged to the grant award.

4.	    Resolved. Both YST and OVW concurred with our recommendation to
       remedy the $12,053 in unallowable questioned costs for training that
       was not consistent with the award objectives, and implement
       procedures to ensure all expenditures are within the award budget and
       applicable to the overall goals and objectives. The OVW stated in its
       response they will coordinate with the YST to remedy $12,053 in
       unallowable questioned costs identified in the draft report and also to
       obtain a copy of procedures implemented to ensure all expenditures are
       within the award budget and applicable to the overall goals and
       objectives.

       This recommendation can be closed when we receive evidence that the
       YST has remedied the $12,053 in unallowable questioned costs for
       training that was not consistent with the award objectives, and
       implement procedures to ensure all expenditures are within the award
       budget and applicable to the overall goals and objectives.

5. 	   Resolved. Both YST and OVW concurred with our recommendation to
       remedy the $3,993 in unallowable questioned costs due to failure to
       acquire prior OVW approval for training and similar events, and
       implement procedures to ensure adherence to award special conditions
       including the preapproval of training funded by the grant. The OVW
       stated in its response they will coordinate with the YST to remedy
       $3,993 in unallowable questioned costs identified in the draft report
       and also to obtain a copy of procedures implemented to ensure
       adherence to award special conditions including the preapproval of
       training funds by the granting agency.

       This recommendation can be closed when we receive evidence that the
       YST has remedied the $3,993 in unallowable questioned costs due to
       failure to acquire prior OVW approval for training and similar events,
       and implement procedures to ensure adherence to award special
       conditions including the pre-approval of training funds by the granting
       agency.



                                       37

6.	    Resolved. Both YST and OVW concurred with our recommendation to
       implement procedures to ensure travel reimbursements only include
       legitimate expenditures that are not paid by cooperative partners. The
       OVW stated in its response they will coordinate with the YST to obtain a
       copy of procedures to ensure that travel reimbursements only include
       legitimate expenditures that are not paid by cooperative partners.

       This recommendation can be closed when we receive evidence that the
       YST has implemented procedures to ensure travel reimbursements only
       include legitimate expenditures that are not paid by cooperative
       partners.

7. 	   Resolved. Both YST and OVW concurred with our recommendation to
       remedy the $8,473 in unsupported questioned costs as a result of
       missing or incomplete documentation, and implement procedures to
       ensure all expenditures are properly supported. The OVW stated in its
       response they will coordinate with the YST to remedy $8,473 in
       unsupported questioned costs and also to obtain a copy of procedures
       to ensure that all expenditures are properly supported.

       This recommendation can be closed when we receive evidence that the
       YST has remedied the $8,473 in unsupported questioned costs as a
       result of missing or incomplete documentation, and implement
       procedures to ensure all expenditures are properly supported.

8.	    Resolved. Both YST and OVW concurred with our recommendation to
       implement procedures to ensure timecards accompany all payroll
       records and are properly maintained. The OVW stated in its response
       they will coordinate with the YST to obtain a copy of procedures to
       ensure that timecards accompany all payroll records and are properly
       maintained.

       This recommendation can be closed when we receive evidence that the
       YST has implemented procedures to ensure timecards accompany all
       payroll records and are properly maintained.

9. 	   Resolved. Both YST and OVW concurred with our recommendation to
       implement procedures to ensure Federal Financial Reports are properly
       supported and accurately reflect actual outlays. The OVW stated in its
       response they will coordinate with the YST to obtain a copy of
       procedures to ensure that Federal Financial Reports are properly
       supported and accurately reflect actual outlays.




                                      38

     This recommendation can be closed when we receive evidence that the
     YST has implemented procedures to ensure Federal Financial Reports
     are properly supported and accurately reflect actual outlays.

10.	 Resolved. Both YST and OVW concurred with our recommendation to
     implement procedures to ensure support documentation for Progress
     Reports is collected and properly maintained, and ensure the timely
     submission of reports. The OVW stated in its response they will
     coordinate with the YST to obtain a copy of procedures to ensure
     support documentation for Progress Reports is collected and properly
     maintained, and ensure the timely submission of reports.

     This recommendation can be closed when we receive evidence that the
     YST has implemented procedures to ensure support documentation for
     Progress Reports is collected and properly maintained, and ensure the
     timely submission of reports.




                                   39

